                     U.S. Department of Agriculture
                        Office of Inspector General




    Hurricane Indemnity Program -
Integrity of Data Provided by the Risk
         Management Agency




                              Audit Report 50601-15-At
                                           March 2010
                                 U.S. Department of Agriculture
                                  Office of Inspector General
                                    Washington, D.C. 20250




DATE:          March 31, 2010


REPLY TO
ATTN OF:       50601-15-At

TO:            William J. Murphy
               Administrator
               Risk Management Agency

               Jonathan W. Coppess
               Administrator
               Farm Service Agency

ATTN:          Michael Hand
               Deputy Administrator for Compliance
               Risk Management Agency

               T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden /S/
               Acting Assistant Inspector General
                for Audit

SUBJECT:       Hurricane Indemnity Program – Integrity of Data Provided by the Risk
               Management Agency


This report presents the results of the subject audit. Your written response to the draft report, dated
December 24, 2009, and February 4, 2010, is attached with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the relevant Finding and Recommendation sections of
the report.

We accepted management decision on Recommendation 1. We cannot accept management
decision on the remaining six recommendations. Documentation and/or actions needed to reach
management decisions for the recommendations are described in the OIG Position sections of the
report.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective action taken or planned and the timeframes for implementing the
recommendation for which management decision has not been reached. Please note that the
regulation requires management decisions to be reached on all recommendations within 6 months
William J. Murphy and Jonathan W. Coppess                                                 2


from report issuance, and final action to be taken within 1 year of each management decision to
prevent being listed in the Department’s annual Performance and Accountability Report. Please
follow your agency’s internal procedures in forwarding documentation for final action to the
Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.
Table of Contents

Executive Summary.................................................................................. 1
Background & Objectives ........................................................................ 6
  Background ............................................................................................ 6
  Objectives .............................................................................................. 6
Section 1: Interagency Coordination...................................................... 7
  Finding 1: Ineffective Coordination between RMA and FSA
  Adversely Affected HIP ......................................................................... 7
        Recommendation 1........................................................................ 10
Section 2: Data Integrity ........................................................................ 11
  Finding 2: AIPs Retroactively Qualified Producers for HIP by
  Disregarding Controls Over the Accuracy of Data Provided to RMA
  .............................................................................................................. 11
        Recommendation 2........................................................................ 14
        Recommendation 3........................................................................ 14
        Recommendation 4........................................................................ 15
        Recommendation 5........................................................................ 16
        Recommendation 6........................................................................ 16
  Finding 3: RMA Did Not Establish Controls Adequate To Ensure the
  Integrity of Data Provided to FSA ....................................................... 18
        Recommendation 7........................................................................ 19
Scope and Methodology ........................................................................ 21
Exhibit A: Summary of Monetary Result .............................................. 24
Exhibit B: HIP Universe and Sample Data for Counties Visited ........ 25
Exhibit C: Loss Claim Cause of Loss Change Sample ........................26
Abbreviations ............................................................................................27
Agency’s Response.................................................................................28
Hurricane Indemnity Program – Integrity of Data Provided by the Risk
Management Agency

Executive Summary
In May 2006, the Secretary of Agriculture authorized the Hurricane Indemnity Program (HIP)
under the Farm Service Agency (FSA) to help producers who suffered crop losses from a series
of 2005 hurricanes. We assessed FSA’s delivery of HIP and evaluated the agency’s management
controls to determine if they were adequate to minimize improper payments and fraud. Since
FSA relied on data supplied by the Risk Management Agency (RMA) to administer HIP, we also
examined RMA’s control over that information. Specifically, we reviewed changes to loss
claims in RMA’s database made by approved insurance providers (AIP) that retroactively
qualified producers for HIP. Overall, we concluded that HIP was adversely affected by a lack of
coordination between RMA and FSA, and that improper payments resulted from AIPs
disregarding RMA controls intended to ensure accurate, supported changes to its data.

As of February 2008, FSA had paid a total of $40 million in HIP payments.1 We reviewed the
AIPs’ supporting documentation associated with 219 Federal crop insurance policies for crop
years 2005 and 2006 with changes to the cause of loss and/or date of damage, which made
producers eligible for HIP payments totaling $2.7 million. RMA had previously requested from
the AIPs justification and documentation for the changes in 206 of these policies. We reviewed
the documentation that the AIPs had provided to RMA.

We also selected 53 of these 206 policies, plus 13 other policies for a total of 66 policies, to
review onsite the AIPs’ claim files to verify whether the changes were adequately supported. In
total, the AIPs made unsupported changes on 145 policies.2 As a result, FSA may have issued
over $1 million in potential overpayments based on unsubstantiated information it received from
RMA and lacks assurance about an additional $1.6 million.

Federal regulations required FSA to determine which insured producers qualified for HIP based
on crop insurance loss claim information maintained by RMA.3 Through a memorandum of
understanding, RMA agreed to search its database and send weekly downloads of eligible
producers to FSA. By regulation, FSA was required to use RMA’s information and could not
make changes to the data. In essence, FSA’s HIP payments were predicated entirely on RMA’s
participant information.

FSA was not allowed to change RMA’s data, but the AIPs were. The 2005 Loss Adjustment
Manual Standards Handbook (LAM) permits the AIPs to change some information on claims


1
  HIP provided payments to eligible agricultural producers who suffered crop losses from Hurricanes Dennis,
Katrina, Ophelia, Rita, or Wilma, and received a crop insurance payment or a noninsured crop disaster assistance
program payment. This audit did not focus on noninsured producers.
2
  127 of these unsupported 145 changes were reported by the AIPs to RMA; however, at the time of our fieldwork,
the changes had still not been reported and forwarded to FSA for adjustment. These 127 unsupported changes
resulted in $815,612 in HIP payments. We also found 18 other policies with unsupported changes, resulting in
$246,346 in HIP payments.
3
  Title 7, Code of Federal Regulations, part 760, subpart C.


Audit Report 50601-15-At                                                                                           1
after they have been submitted to RMA.4 For example, the AIPs can change a claim in RMA’s
database to show hurricane rather than drought as a producer’s cause of loss.5 When they make
such changes, the AIPs must follow RMA’s corrected claims procedures, which require them to
acquire and maintain supporting documents, such as statements from a loss adjuster and producer
that confirm the change is accurate.6

In August 2006, FSA discovered that the AIPs were changing producers’ causes of loss and dates
of damage in RMA’s database in order to retroactively qualify producers for HIP payments. In
September, worried that the program’s integrity had been compromised—i.e., that HIP payments
were going to ineligible producers—FSA officials alerted RMA. The agencies had no specific
resolution procedures, but the Deputy Administrator of RMA’s Compliance Office (DAC)
agreed to determine if the changes were justified. In January 2007, the DAC sent a list of
206 policies for crop year 2005 with changes to the cause of loss to the AIPs responsible and
required them to certify to the changes’ legitimacy and provide supporting documents.

By April 2007, the AIPs had replied but the DAC did not review their responses. Concerned that
the matter was not being resolved timely, FSA met with the DAC in April. The DAC agreed to
analyze the AIPs’ responses, but neither the DAC nor FSA set a timeframe. Afterwards,
according to the DAC, a lack of resources along with competing priorities prevented RMA from
conducting the analysis. In June 2008, the DAC sent another letter to the AIPs that required
them to justify changes that the AIPs had not yet reviewed (i.e., cause of loss and date of damage
changes for crop years 2005 and 2006 that qualified producers for HIP). In August 2008, the
AIPs replied again, but it was not until August 2009 that RMA provided to FSA the final
corrected download of all producers eligible for HIP7.

We reviewed the AIPs’ responses to RMA’s initial letter, dated January 31, 2007, and found that
many changes they certified as legitimate were not supported by the file documentation. Two
AIPs reversed a total of 127 of their 148 policies with changes to the cause of loss. Three others
certified that all their 58 questioned policies were justified. To determine if the changes were in
fact supported, we examined the AIPs’ original files for 66 loss claims, and found that 50 loss
claims were not supported (see Scope and Methodology for sample details). Nothing came to
our attention to indicate that the producers’ crops did or did not suffer losses due to the
hurricanes; our review was based on whether or not AIPs had adequately supported their
changes.

To explain its blanket certification, one AIP cited an email from RMA that instructed the AIPs to
change the cause of loss/date of damage to correct loss claim errors. Another contended that it
was “common sense” that the hurricanes caused widespread damage and therefore, if a producer
had a crop in the field during a hurricane, part of the loss must have been caused by it. In either
case, the AIPs were still required to follow RMA’s corrected claim procedures and support the


4
  2005 LAM, Part 4, Section 3, “Corrected Claims.”
5
  RMA’s database does not allow AIPs to enter changes outside of the insurance coverage period or from an
authorized cause of loss to an unauthorized cause of loss. RMA staff must review these changes and enter them
manually.
6
  2005 LAM, Part 4, Section 3, “Corrected Claims.”
7
  RMA provided a download in May 2009 but it was incorrect for some producers and crops. In August 2009, RMA
provided a corrected download to FSA.

Audit Report 50601-15-At                                                                                   2
changes. Instead, the AIPs disregarded RMA’s procedures and changed loss claim information
in the agency’s database at the insurance agents’ requests in order to retroactively qualify their
producer clients for HIP payments.

The AIPs’ continuing decisions to ignore RMA’s corrected claims procedures coupled with their
failure to acknowledge and in some cases remedy their wrongdoings constitutes a pattern or
practice of noncompliance. In such cases, RMA can require the AIPs to pay damages for all
crop insurance contracts affected by their failure to comply, based on the materiality and severity
of the failure.8 Given that their actions directly resulted in FSA making HIP overpayments
totaling at least $1 million,9 we recommend that RMA require the AIPs to pay damages based on
coordination with the Office of the General Counsel and RMA’s final determination of the total
number of unsupported changes that qualified producers for HIP.

We discussed the unsubstantiated data with RMA officials who stated that the AIPs were
responsible for providing the agency with accurate data and that the agency’s role was simply to
transmit that information to FSA. We agree that the AIPs bear responsibility for following
procedures, but disagree that interagency data-sharing did not require RMA to strengthen its
controls over the integrity of information sent to FSA. In general, agencies are responsible for
monitoring the effectiveness of their internal controls, but controls that are sufficient for one
agency alone may not be acceptable for two agencies working together. Although RMA’s
reliance on the AIPs may have been adequate for its own programs, this was not effective for
FSA’s administration of HIP, as demonstrated by the overpayments and continuing uncertainty
about participant payments and the program’s closure.

FSA has used RMA’s information to administer crop disaster programs since 1998 and will
continue to do so under the Supplemental Revenue Assistance Payments (SURE) program, the
2008 Farm Bill’s successor to the prior “ad hoc” crop disaster programs.10 In such cases, the
agencies must recognize not only the need to share information, but also their shared
responsibility to ensure the integrity of that information. The Office of Inspector General (OIG)
identified such interagency coordination as a major management challenge because one agency’s
action (or inaction) can adversely affect another agency’s program.11 As agencies increasingly
integrate their information systems, the Department and OIG have stressed that they must work
together to create a correspondingly integrated system of program administration.12

To strengthen controls in future data-sharing efforts, both agencies should take proactive steps to
protect the integrity of data sent and received, to include implementing controls, such as data-
mining and periodic reconciliation. Agencies should also establish specific resolution
procedures to timely address concerns. RMA should also complete its review of the AIPs’
support for changes that retroactively qualified producers for HIP and forward the results to


8
  Standard Reinsurance Agreement, IV. General Provisions, H., Compliance and Corrective Action, Part 8.
9
  This amount includes the total unsupported changes agreed to by two AIPs, but which had not yet been reported to
FSA for collection, plus the additional amount that we identified.
10
   Unlike the prior crop disaster programs, SURE is legislated through 2011.
11
   2007 U.S. Department of Agriculture (USDA) Performance and Accountability Report, Section 1, “Management
Discussion & Analysis, Management Challenges.”
12
   2007 USDA Performance and Accountability Report, Section 1, “Management Discussion & Analysis,
Management Challenges.”

Audit Report 50601-15-At                                                                                         3
FSA. Once received, FSA should collect any overpayments from producers who no longer
qualify for HIP in addition to the $1 million from corrections the AIPs have already made.

Our audit was conducted in conjunction with the Council of the Inspectors General on Integrity
and Efficiency as part of its examination of the Federal Government’s relief efforts in the
aftermath of Hurricanes Katrina and Rita. As such, a copy of the report has been forwarded to
the Council of the Inspectors General on Integrity and Efficiency, Homeland Security Working
Group, which is coordinating the Inspectors General reviews of this important subject.

   Recommendation Summary

FSA’s Administrator should:

   ·   Recover $815,612 in HIP overpayments that have been identified, and recover any other
       overpayments resulting from RMA’s review of the AIPs’ changes to cause of loss and
       date of damage.

RMA’s Administrator should:

   ·   Implement policies that require RMA to assess its controls over the integrity of
       information provided to other agencies when entering into data-sharing agreements, and
       to strengthen controls as necessary to prevent adverse impact on other agencies’
       programs.

   ·   Review all supporting documents provided by the AIPs in response to the agency’s
       requests for justification for loss claim changes and determine the validity of the changes.

   ·   Provide FSA with a list of producers who have been determined to be eligible for HIP
       based on the AIPs’ and RMA’s review of companies’ changes to loss claim data.
       Determine whether the unsupported changes in the 18 policies that OIG identified and
       that resulted in $246,346 in HIP payments should be reversed by the AIPs and, if
       appropriate, provide FSA with a list of these corrections.

   ·   Seek an opinion from OGC as to whether RMA can enforce administrative penalties or
       sanctions on all policies with changes that were unsupported, and if available, assess the
       AIPs that inappropriately changed claim data.

RMA’s and FSA’s Administrators should:

   ·   Implement policies that require interagency data-sharing agreements, such as
       memorandums of understanding, to include specific procedures and timeframes to
       resolve concerns, and to elevate to the appropriate official when timely resolution does
       not occur.




Audit Report 50601-15-At                                                                            4
   Agency Response

   In FSA’s December 24, 2009, response to the draft report, the agency agreed with
   Recommendation 5 and is in the process of collecting the associated overpayments. In its
   February 4, 2010, written response to the draft report, RMA agreed with Recommendations
   1, 3, 6, and 7. RMA stated that Recommendation 2 was no longer applicable since the AIPs
   had corrected the unsupported claim information. Additionally, in response to
   Recommendation 4, RMA did not plan to take further action concerning the AIPs actions in
   making unsupported changes. RMA plans to issue a bulletin to the AIPs highlighting the
   program requirements for the issues cited in the audit. Both FSA’s and RMA’s responses to
   the draft report are attached to the audit report.

   OIG Position

   Based on FSA’s and RMA’s responses, we accepted management decision on
   Recommendation 1. In order to reach management decision on Recommendations 2, 3, 4, 5,
   6, and 7, FSA and RMA need to provide the additional information as outlined in the OIG
   Position sections presented in the Findings and Recommendations sections of the report.




Audit Report 50601-15-At                                                                       5
Background & Objectives

Background
Administered by the Farm Service Agency (FSA), the Hurricane Indemnity Program (HIP)
offered assistance to producers in several States who had suffered losses due to a series of
2005 hurricanes.13 To be eligible for HIP assistance, producers must have received either: (1) a
2005 or 2006 U.S. Department of Agriculture (USDA) Risk Management Agency (RMA)
indemnity payment for insured crops or (2) a 2005 or 2006 Noninsured Crop Disaster Assistance
Program (NAP) crop loss payment. The payment must have been for an eligible hurricane in an
eligible county during an applicable disaster period, and the cause of loss must have been
hurricane-related. If qualified, HIP added 30 percent to producers’ NAP payment or to their crop
insurance indemnity, but the HIP payment was capped at $80,000. In total, as of February 2008,
FSA had made over $40 million in HIP payments.

Signup for HIP began May 17, 2006, with producers applying in the FSA county office where
their loss occurred. For producers who had received a 2005 or 2006 crop indemnity payment,
FSA used weekly downloads of loss claim information from RMA’s database to determine HIP
eligibility and to calculate payments.

Objectives
Our overall objectives were to evaluate the effectiveness of FSA’s delivery of HIP, and to
determine if FSA’s management controls for the program were effective to minimize/preclude
improper payments and fraud. We also evaluated the adequacy of RMA’s control over changes
to data submitted by approved insurance providers (AIP) and provided to FSA in relation to HIP
(specifically, changes in the causes of loss or the dates of damage).




13
  Producers were eligible for HIP in eligible counties located in Alabama, Florida, Louisiana, Mississippi, North
Carolina, and Texas if they had suffered crop losses due to Hurricanes Dennis, Katrina, Ophelia, Rita, or Wilma.


Audit Report 50601-15-At                                                                                            6
Section 1: Interagency Coordination

Finding 1: Ineffective Coordination between RMA and FSA Adversely
Affected HIP
Section 32 of the Agriculture Adjustment Act of August 24, 1935, as amended, authorizes the
Secretary of Agriculture to provide assistance to farmers to restore their purchasing power. The
Secretary of Agriculture authorized HIP as an ad hoc disaster program to help producers who
suffered losses from a series of hurricanes in 2005.14 For insured producers, regulations required
FSA to administer HIP using loss claim information maintained by RMA, but ineffective
coordination between the two agencies adversely affected the program. Although a
memorandum of understanding laid out the agencies’ responsibilities beforehand, the agreement
lacked both controls to ensure the accuracy of data sent from RMA and controls to resolve
questions about the information received by FSA. As a result, RMA did not detect any changes
the AIPs made to loss claims in its database, which qualified producers for HIP payments
totaling at least $1 million. These claims were filed under 145 policies held by 132 producers.15
FSA is currently reconciling HIP applications to match final RMA download data, which was
provided to FSA by RMA in August 2009. The full extent of HIP overpayments cannot be
determined until FSA completes the reconciliation. Given that 76 percent of the changes we
sampled proved unsupported (50 of 66), the final overpayment amount is likely to climb
significantly.

In general, each USDA agency is separately responsible for establishing internal controls
adequate to ensure the integrity of its programs.16 However, the Office of Inspector General
(OIG) has identified interagency coordination as a major management challenge because one
agency’s action (or inaction) can adversely affect another agency’s program.17 As agencies
increasingly integrate their information systems, the Department and OIG have stressed that they
must work together to create a correspondingly integrated system of program administration.18

HIP required such an integrated approach because FSA’s program payments were predicated on
RMA’s participant information. Federal regulations mandated that FSA determine which insured
producers were entitled to HIP payments based on insurance loss claim information maintained
by RMA.19 Through a memorandum of understanding, RMA agreed to search its database and
send weekly downloads with relevant information about qualified producers to FSA.


14
   HIP provided payments to eligible agricultural producers who suffered crop losses from Hurricanes Dennis,
Katrina, Ophelia, Rita, or Wilma, and received a crop insurance payment or a NAP payment. This audit did not
review HIP payments for noninsured producers.
15
   As discussed below, the number of unsupported changes represents both our sampled policies and those corrected
by the AIPs after being questioned by RMA. Two AIPs identified 127 unsupported changes that were corrected;
however, the corrections had not been forwarded to FSA at the time of our fieldwork. We identified 18 other
policies with unsupported changes that need to be corrected.
16
   Office of Management and Budget (OMB) Circular A-123, issued December 21, 2004.
17
   2007 USDA Performance and Accountability Report, section 1, “Management Discussion & Analysis,
Management Challenges.”
18
   2007 USDA Performance and Accountability Report, section 1, “Management Discussion & Analysis,
Management Challenges.”
19
   Title 7, Code of Federal Regulations (C.F.R.), part 760, subpart C, May 10, 2006.

Audit Report 50601-15-At                                                                                        7
By regulation, FSA was required to use RMA’s downloaded data—unchanged—to determine
program eligibility and payments.20

While FSA was not allowed to alter RMA’s data, AIPs were. The 2005 Loss Adjustment Manual
Standards Handbook (LAM) permits the AIPs to change certain claim information after the fact,
but they must justify the changes with supporting documents, such as certified statements by the
loss adjuster and producer.21 For example, with appropriate support, an AIP may change a
producer’s claim to reflect a different insurable cause of loss. RMA is not required to review
these changes or verify their support when the change is made from one insurable cause of loss
to another insurable cause of loss, and the agency does not typically do so.

We discussed this lack of control over information in its database with regard to HIP with RMA
officials. They contended that relying on the AIPs to ensure the underlying accuracy of loss
claim corrections was adequate because the changes did not affect RMA’s indemnity payments.
The changes were from one insurable cause of loss to another or from one insured date of
damage to another—inconsequential changes for crop insurance indemnity purposes. We agree
that the AIPs’ actions did not affect RMA’s programs, but note that they ultimately did adversely
impact FSA’s HIP payments.

For example, 283 days after a producer’s crop insurance claim was filed in 2006, one AIP
changed the approved cause of loss from drought, which was not eligible for HIP, to hurricane,
which was. In its weekly download, RMA sent information about the newly qualified producer
to FSA, which accordingly issued a HIP payment of $49,548. In reviewing the AIP’s
documents, however, we found nothing in the loss claim file to support the changed cause of loss
and, therefore, concluded that the HIP payment was unsupported.

Our review of 66 sampled policies found unsupported changes in 50 policies (76 percent), and
the AIPs determined in their reviews that 127 of 206 policies (62 percent) had unsupported
changes.22 Overall, FSA has issued at least $1 million in HIP payments based on unsupported
changes in 145 policies to 132 producers. The full extent of HIP overpayments has yet to be
determined as we discuss below. Given the high percentage of unsupported changes determined
by both OIG’s and the AIPs’ reviews, the total amount of HIP overpayments is likely much
higher.

In September 2006, FSA first became aware of a potential problem when a loss adjuster in
Mississippi told the agency’s field office staff that a producer had insisted the adjuster change
the cause of loss for a loss claim from drought to hurricane in order to qualify the producer for
HIP. The adjuster refused and notified the AIP. Rather than establish controls to ensure its
clients did not obtain ineligible HIP payments, the AIP responded by adding hurricane loss to
claims filed from the date of the hurricane forward. Later when following up with FSA, the
adjuster found that the producer appeared on FSA’s weekly download of HIP-eligible producers
from RMA. Worried that the program’s integrity had been compromised—i.e., that HIP
payments were going to ineligible producers—FSA’s field office staff informed their national
office of the potential problem.

20
   7, C.F.R., part 760, subpart C, May 10, 2006.
21
   2005 LAM, Part 4, Section 3, “Corrected Claims.”
22
   The 66 policies we reviewed included 53 of the 206 policies the two AIPs reviewed.

Audit Report 50601-15-At                                                                            8
In September 2006, FSA officials alerted RMA about their concerns. In the memorandum of
understanding, the two agencies had agreed to coordinate if there were any questions about the
data, but had not established any specific resolution procedures or timeframes. The Deputy
Administrator of RMA’s Compliance Office (DAC) suggested that RMA perform data-mining to
determine the extent of the problem. FSA agreed and the DAC contracted with the Center for
Agribusiness Excellence to identify 2005 crop year policies with changes to the cause of loss that
qualified them for HIP.

In November 2006, the DAC received the data-mining report, which listed 206 policies from
5 AIPs that had changed producers’ cause of loss from one that did not qualify for HIP to one
that did. In January 2007, the DAC wrote to the AIPs, requiring them to review the changes,
certify to their legitimacy, and provide supporting documents to RMA. Based on their
responses, the letter noted, RMA would determine if the changes were legitimate or a scheme to
obtain improper benefits (i.e., HIP payments) for producers.

By April 2007, the five AIPs had replied but the DAC did not review their responses. Concerned
that the matter was not being resolved timely, FSA initiated a meeting with the DAC in April
2007. The DAC agreed to analyze the AIPs’ responses so FSA could determine which HIP
payments were improper, but again, the agencies did not set a timeframe. Afterwards, according
to the DAC, a lack of resources along with competing priorities prevented RMA from
conducting the analysis. Although RMA took no action, FSA did not elevate this issue to the
USDA Under Secretary who oversees both agencies (Farm and Foreign Agricultural Services).

In April 2008, we met with RMA compliance officials, including the DAC, to discuss our
analysis of 66 sampled policies with after-the-fact changes in their claims qualifying them for
HIP. We informed them that we found 50 which were unsupported. Subsequently, in May 2008,
the DAC submitted an expanded data-mining request, which asked for a list of 2005 and
2006 policies that had changes to the cause of loss or date of damage after HIP was announced
(January 2006). In June 2008, the DAC received the results and sent another letter to the AIPs
which required them to review the cause of loss changes and date of damage changes, certify if
they were legitimate, and provide supporting documents. RMA received responses in August
2008, but did not provide to FSA the corrected data for HIP until August 2009.

In general, the negative impact of unsupported changes on HIP payments would have been
minimized if the two agencies had worked together to create an integrated system of controls to
match the integrated use of information to administer the program. Although the AIPs’ changes
did not affect RMA’s indemnity payments, the agency must take a broader, Departmental
perspective and establish both preventative and curative controls to help protect the integrity of
agencies that rely on RMA’s information. Specifically, since the interagency coordination
needed for each program is unique, RMA should assess the integrity of information provided to
other agencies and determine how to strengthen its controls when necessary. Further, RMA and
FSA must include specific resolution procedures and timeframes in their future data-sharing
agreements to timely resolve problems when they do occur.

FSA has used RMA’s information to administer crop disaster programs since 1998 and will
continue to use RMA’s information under the SURE program through at least 2011. In such
cases, where one agency relies upon another agency’s information to administer a program, the


Audit Report 50601-15-At                                                                             9
agencies must recognize not only the need to share information, but also their shared
responsibility to ensure the integrity of that information.

   Recommendation 1

   RMA and FSA should implement policies that require interagency data-sharing agreements,
   such as memorandums of understanding, to include specific procedures and timeframes to
   resolve concerns, and to elevate to the appropriate official when timely resolution does not
   occur.

   Agency Response

   In RMA’s February 4, 2010, written response, it stated that a memorandum of understanding
   between RMA and FSA will be issued for future data sharing to include notification to
   responsible parties that action should be taken to elevate issues/concerns to appropriate
   levels. Both agencies expect implementation of this recommendation by August 2010.

   OIG Position

   We accept RMA’s and FSA’s management decision.




Audit Report 50601-15-At                                                                      10
Section 2: Data Integrity

Finding 2: AIPs Retroactively Qualified Producers for HIP by
Disregarding Controls Over the Accuracy of Data Provided to RMA
In 50 of the 66 loss claims we reviewed, 4 AIPs made unsupported changes to RMA claim
information, which retroactively qualified their producers for HIP. In addition, 2 of these 4 AIPs
admitted that 127 of 148 policies with loss claim changes were unsupported, and had to
reclassify their loss claims, therefore, making them ineligible for HIP payments. This occurred
because AIPs disregarded the agency’s corrected claims procedures, which were intended to
ensure that changes to loss claims were supported. Based on all unsupported changes we
reviewed, FSA issued improper payments totaling $1,061,958.

FSA’s HIP payments to insured producers were predicated on loss claim information maintained
by RMA from data entered by AIPs that serviced the policies. When AIPs make changes to loss
claims previously submitted, they also make corresponding changes in RMA’s database. The
2005 LAM allows the AIPs to make these changes if the claims contain incorrect information,
such as the wrong cause of loss (e.g., drought instead of hurricane damage).23 In these cases, the
AIPs must follow the manual’s corrected claims procedures, which require both the loss adjuster
to prepare a report explaining the correction(s) and the adjuster and producer to sign supporting
documents. RMA’s compliance office stated that the support must include, at minimum,
statements from the loss adjuster and producer confirming the change.

Signup for HIP payments began in May 2006. Insured producers could apply for payments only
if they were included in RMA’s weekly downloads of qualified producers to FSA. In accordance
with the HIP handbook, FSA’s county office staff instructed producers who did not appear on the
download to consult their insurance agent since the staff had to rely on what they received from
RMA.24 Shortly after sign-up, agents began contacting the AIPs to determine why their producer
clients were not included in RMA’s downloads. They were informed that either the producers’
cause of loss or date of damage did not qualify.

In response to their agents’ inquiries, the AIPs began changing their producer clients’ loss
claims’ causes of loss or dates of damage, often accessing their clients’ loss claims in RMA’s
database without statements or other documents from the producers and loss adjusters to confirm
that there was in fact hurricane-related damage. Several producers told us that they did not ask
their insurance agent to change their cause of loss and that they did not know that their AIPs had
made the changes. Additionally, although loss adjusters initially confirmed a cause of loss that
was not eligible for HIP, AIPs nevertheless changed the cause of loss to one that was eligible an
average of over 200 days after the original claim was filed.

23
   The 2005 LAM also allows the AIPs to change claims for four other reasons that did not impact our audit (Part 4,
Section 3, “Corrected Claims”). Specifically, the AIPs can correct claims when (1) the indemnity is affected, (2) an
arbitration or review determines correction is appropriate, (3) the claim is settled on based on an estimate of crop
production but is later harvested for a different yield, and (4) misreported information exceeds RMA’s tolerance for
liability (10 percent). The 2006 manual adds an additional reason: an acreage discrepancy between AIPs’
measurements and a measurement service.
24
   Notice DAP-241, “2005 Section 32 Hurricane Provisions for the Hurricane Indemnity Program (HIP) and Tree
Indemnity Program (TIP),” April 14, 2006.

Audit Report 50601-15-At                                                                                          11
The AIPs’ claims managers did not document most changes and told us that it was “common
sense” that the hurricanes caused widespread damage and, therefore, if an insured producer had a
crop in the field (i.e., unharvested) during the hurricane, part of any loss must have been
hurricane-related. However, despite asserting the widespread effect, the AIPs did not change all
policies in the disaster areas but only those requested by agents or producers. To support the
changes, the AIPs also cited an email from RMA that instructed them to change the cause of
loss/date of damage to correct loss claim errors. However, the email specified that AIPs were
still responsible for taking the necessary steps to correct the information, which included
following RMA’s corrected claims procedures, as agency officials confirmed.

In August 2006, FSA became concerned that the AIPs were making unsupported loss claim
changes that did not actually reflect hurricane damage in order to retroactively qualify producers
for HIP payments (see Finding 1). In September 2006, FSA notified RMA of its concern, and
RMA subsequently identified 5 AIPs that had a total 206 policies for crop year 2005 with cause
of loss changes. In January 2007, RMA sent letters to the AIPs requesting that they review the
policies, certify if the changes were justified, and provide supporting documents to RMA.

By April 2007, the 5 AIPs had responded to RMA’s request, and, determined that 127 of
206 policies with changes to the loss claims’ cause of loss were unsupported; therefore,
ineligible for HIP payments.25 Two of the AIPs determined that the majority of the changes they
made to cause of loss were unsupported. Accordingly, Company A corrected 119 of 134 policies
in RMA’s database, and Company D corrected 8 of 14. Two other AIPs certified that all their
57 cause of loss changes were supported: 17 for Company C and 40 for Company B. The
remaining AIP, Company E, changed the claim’s cause of loss for only one policy, which it
demonstrated had the correct code on the original loss claim (92 for hurricane damage) that it
incorrectly entered into RMA’s database (93 for wildlife). RMA accepted all the AIPs’ responses
without analyzing the accompanying documents to ensure they supported those 78 policies with
changes certified as correct.

OIG did examine the responses and determined that 57 of 78 (73 percent) did not include
sufficient documentation to conclude whether or not they had followed RMA’s corrected claims
procedures.26 None of the 57 had confirming statements from the loss adjuster and producer.
Instead, the AIPs included various documents. For example, some had inked in a cause of loss
that made the claim eligible for HIP (see exhibit C for an example) and one AIP simply added a
letter from its claims manager stating that the changes were justified. Given these deficiencies,
we decided to conduct an expanded, in-depth review to ascertain if the AIPs’ changes were in
fact properly supported. Our review selected a sample of crop year 2005 and 2006 cause of loss
and date of damage changes, which included over a fourth of the cause of loss changes reviewed
by the AIPs. Based on original claim files, we concluded that 50 of 66 (76 percent) sampled
policies with changes were not adequately supported.27
We detail these issues below.

25
   The 127 policies with unsupported changes to the loss claims resulted in $815,612 in HIP payments.
26
   Company E changed the cause of loss for its claim and properly demonstrated that a hurricane related cause of
loss was reported on the original claim and incorrectly entered into RMA’s system. Therefore, the change for
Company E was adequately supported by file documentation.
27
   Nothing came to our attention to indicate that the producers’ crops did or did not suffer losses due to hurricane
damage; our review was based on whether or not the insurance AIPs had adequately supported their changes.

Audit Report 50601-15-At                                                                                               12
        Two AIPs Did Not Acknowledge Unsupported Changes

        While Company A and Company D reversed changes due to inadequate support,
        Companies B and C certified to RMA that all 57 questioned policies were justified even
        though our review found that their claim files were similarly deficient. Company B
        contended that it was “common sense” that the hurricanes caused widespread damage
        and, therefore, if a producer had a crop in the field during the hurricane, part of the loss
        must have been caused by it. Company C cited an email from RMA that instructed it to
        change the cause of loss/date of damage to correct loss claim errors.

        We reviewed 10 of the 40 policies with changes that Company B had certified were
        justified and found that none were supported by documents in its original claim files.
        They all showed causes of loss unrelated to hurricane damage. The justification included
        for one policy was a memorandum prepared by Company B stating that the crop was in
        the field during a hurricane and, therefore, “may” have been partially damaged. Three
        policies contained an agent’s email that asked Company B to change producers’ causes of
        loss, which it included as support. Six had no supporting documents.

        For Company C, we reviewed 11 policies, including 4 that it certified as supported and
        7 that it was not asked to review.28 We disagreed with all four the AIP had certified as
        supported because they only included handwritten notes by the AIP but no statements
        from the producer and adjuster. When we asked Company C officials for further support,
        they cited the email from RMA instructing them to change the cause of loss/date of
        damage to correct loss claim errors. However, the email did not excuse them from
        following the agency’s corrected claims procedures. As discussed above, the email
        specified that they were still responsible for taking the necessary steps to correct the
        information.

        Based on our review, Companies B and C made unsupported changes to 14 policies with
        loss claims, which resulted in producers, who would not otherwise have qualified,
        receiving HIP payments from FSA totaling $183,909.

The unsupported changes on 145 policies made by the 4 AIPs resulted in improper HIP
payments totaling $1,061,958.29

In general, AIPs continuously disregarded RMA’s corrected claims procedures throughout the
HIP signup period (May – September 2006). As the AIPs received requests from agents, they
made changes to loss claims—instead of relying on producers’ reports and loss adjusters’
inspections—in order to qualify their producers for HIP payments even though they lacked proof
that the changes were accurate. We concluded that the AIPs’ continuing decisions to disregard
RMA’s correction procedures and their failure to acknowledge and remedy their actions
constitute a pattern or practice of noncompliance.


28
   The seven policies with loss claim changes represented data input errors where the original claim had a hurricane
related loss code or date of damage. RMA’s request for justification did not include these seven policies.
29
   Including both our and the AIPs’ review, Companies A and D made 131 unsupported changes and Companies B
and C made 14. Two AIPs identified 127 of these unsupported changes; based on our review, we identified 18 other
policies with unsupported changes.

Audit Report 50601-15-At                                                                                         13
When there is such a pattern or practice of noncompliance, the Standard Reinsurance Agreement
(SRA) requires the AIPs to pay liquidated damages of up to 5 percent of the net book premium
on all crop insurance contracts affected by their failure to comply, based on the materiality and
severity of the failure.30 Given that their actions directly resulted in FSA making unsupported
HIP payments totaling at least $1 million, we recommend that RMA seek the Office of the
General Counsel’s (OGC) advice whether it can enforce administrative penalties or sanctions on
AIPs to pay damages based on the agency’s final determination of the total number of
unsupported changes that qualified producers for HIP.

       Recommendation 2

       RMA should review all supporting documents provided by the AIPs in response to the
       agency’s requests for justification for loss claim changes and determine the legitimacy of the
       changes.

       Agency Response

       In its February 4, 2010, response, RMA stated that because the AIPs have corrected the
       unsupported claim information in RMA’s database, this recommendation is no longer
       applicable

       OIG Position

       We cannot reach management decision on this recommendation. While AIPs reported that
       they corrected the unsupported claim information, our review determined that not all of the
       unsupported changes were corrected. Therefore in order to achieve management decision,
       RMA needs to verify in its system and provide a written assurance that all earlier changes
       have been reversed making the producers ineligible for HIP as reported by the AIPs.

       Recommendation 3

       RMA should provide FSA with an accurate list of producers who have been determined to be
       eligible for HIP based on AIPs’ and RMA’s review of AIPs’ changes to loss claim data.

       Agency Response

       In its February 4, 2010, response, RMA stated that it has completed this action. The HIP
       program was set up for transmissions to include all eligible producers in each transmission.
       Previously, there was a problem with producers not being removed from the listing if a
       change was made that made them ineligible. After correcting this problem, a new file was
       sent to FSA in March 2009. Additional changes were made by a company to correct
       problems with the way they were transmitting their data. As a result, an additional file was
       created and sent to FSA in July 2009.

       OIG Position



30
     SRA Section IV. General Provisions, H., Compliance and Corrective Action, Part 8.a.

Audit Report 50601-15-At                                                                              14
   Although RMA stated that it has completed the recommendation action, we need additional
   information before we can reach management decision. Following RMA’s verification and
   assurance that all changes were made by the AIPs (see OIG Position section to
   Recommendation 2), RMA may need to provide FSA an updated list of producers eligible for
   HIP.

   Recommendation 4

   RMA should seek an opinion from OGC as to whether RMA can enforce administrative
   penalties or sanctions on AIPs responsible for making changes to claim information in
   RMA’s database that were unsupported and, if applicable, assess the AIPs that
   inappropriately changed claim data. Regardless, RMA should provide additional training to
   AIPs stressing the procedural requirements for making changes to loss claims and
   emphasizing the necessary documentation to verify and support changes.

   Agency Response

   In its February 4, 2010, response, RMA stated that it has requested and received a legal
   opinion from OGC. After reviewing OGC’s opinion, the actions of all the AIPs to correct the
   claim information in RMA’s database that were unsupported, and the fact there was no direct
   financial gain by the AIPs actions, it will be very difficult for RMA to prove willful behavior
   on the part of the AIPs. For this reason, RMA will be taking no further action concerning
   this portion of the recommendation.

   Concerning the second part of this recommendation, RMA does not provide training to the
   AIPs, but specifies program requirements they must meet. As an alternative, RMA will issue
   a bulletin within the next 6 months to the AIPs highlighting the program requirement(s) for
   the issues cited in the audit.

   OIG Position

   We cannot accept management decision for this recommendation. The OGC opinion states
   that RMA can collect up to 5 percent of the net book premium from the AIPs for failure to
   comply with provisions of the SRA and procedures. In those cases where the AIPs corrected
   the violations after RMA asked them to review the policies and to justify the changes, we
   believe that RMA should seek this administrative redress. In addition, OGC’s opinion details
   that in those cases where the AIPs failed to follow the approved procedures after being asked
   to review their policies, such conduct may arise to willful behavior. If RMA can establish
   that the conduct was willful, it can deny reinsurance for the applicable policies. Therefore, in
   order to reach management decision on this recommendation, we believe that RMA needs to
   pursue administrative actions against the AIPS under the two scenarios described by OGC (to
   include referring to OGC whether the evidence is sufficient to deny reinsurance) or provide
   to OIG its justification for not further pursuing administrative actions against the AIPs.




Audit Report 50601-15-At                                                                        15
   Recommendation 5

   FSA should recover the $815,612 in HIP overpayments that have been identified, and
   recover any other overpayments resulting from RMA’s review of the AIPs’ changes to cause
   of loss and date of damage.

   Agency Response

   In its December 24, 2009, response, FSA stated that it is in the process of collecting the
   $815,612 identified by OIG and resolving any further overpayments as a result of a corrected
   RMA download. On August 14, 2009, Notice DAP-316 notified county offices that a
   corrected RMA download would be transmitted on or around August 18, 2009. County
   offices were instructed to reconcile HIP applications to match the final RMA download data.
   Upon reconciling the files, county offices will be required to determine if the producers
   affected by the corrected download are due a payment or if they have been overpaid.
   Instructions provided indicated if producers are determined overpaid then county offices are
   to establish a receivable for the overpayment. On November 30, 2009, Notice DAP-319
   provided further instructions to State and county offices to submit documentation to the
   national office in support of responding to this recommendation. All documentation to
   support the collection of money or establishment of receivables is to be provided to the
   national office by January 20, 2010.

   OIG Position

   We concur with FSA’s corrective action. However in order to reach management decision,
   FSA needs to provide to OIG copies of the bills for collections and support that the amounts
   have been entered as receivables on the agency’s accounting records, or its justification for
   those overpayments not established as receivables.

   Recommendation 6

   RMA should determine whether the 18 policies that OIG identified with unsupported
   changes and that resulted in $246,346 in HIP payments need to be corrected. Direct the AIPs
   to reverse the changes, and provide FSA a list of these corrections.

   Agency Response

   In its February 4, 2010, response, RMA stated that within the next year RMA will review and
   assess the 18 identified policies to determine whether the changes are supported, and if not,
   RMA will instruct the responsible AIP to reverse the changes, and provide to FSA a list of
   corrections.




Audit Report 50601-15-At                                                                       16
   OIG Position

   We believe that RMA’s proposed corrective action may no longer be relevant given its
   response to Recommendation 2 that the AIPs have corrected the unsupported claim
   information in RMA’s database. Therefore, in order to reach management decision for this
   recommendation, RMA needs to verify whether all changes were made and, accordingly,
   provide FSA any further corrections, if appropriate.




Audit Report 50601-15-At                                                                  17
Finding 3: RMA Did Not Establish Controls Adequate To Ensure the
Integrity of Data Provided to FSA
The AIPs made changes to RMA's data that qualified producers for HIP. RMA transmitted the
data to FSA without ensuring the changes were supported, and FSA used the data to determine
which producers were qualified for HIP payments. Subsequently, the AIPs corrected some of the
unsupported changes in RMA's database, which disqualified producers for HIP. RMA assumed
that these corrections would be picked up in its weekly download to FSA, but they were not.
Consequently, FSA was neither able to identify producers who no longer qualified for HIP based
on the AIPs’ corrections, nor collect overpayments made to the disqualified producers. As
previously noted FSA used RMA’s data – unchanged – to determine program eligibility and
payments. As a result, FSA has made at least $1 million in unsupported payments and has no
assurance about the propriety of the remaining HIP payments that were based on the AIPs’
changes, totaling $1.6 million.

RMA’s control over the AIPs’ changes to loss claims in its database was the requirement that
they follow the LAM’s corrected claims procedures. The LAM required AIPs to substantiate
changes with supporting documents (e.g., statements from the loss adjuster and producer). As
discussed in Finding 2, this control was inadequate to ensure that FSA received accurate
information about which producers qualified for HIP. Although OMB Circular A-123 requires
agencies to monitor the effectiveness of their internal controls, RMA relied on AIPs to comply
and did not monitor their actions to ensure that they were. In addition, OMB Circular A-123
requires regular data reconciliation, but RMA did not compare the two sets of data to ensure that
the AIPs’ corrections in its database were reflected in the information it sent to FSA.

We discuss these issues in more detail below.

       RMA Did Not Monitor the AIPs’ Changes to Its Database

       In May 2006, when HIP signup began, the AIPs began making changes to previously
       submitted loss claims in RMA’s database, which made producers eligible for HIP
       payments who would not have qualified otherwise. On average, the changes were made
       over 200 days after the claims were filed. For example, 324 days after a loss claim was
       filed by a producer and confirmed by a loss adjuster, one AIP changed the cause of loss
       from drought to excessive precipitation. By the end of the signup period, 311 policies
       with loss claims became eligible for HIP payments totaling $2.7 million based on the
       AIPs’ changes.

       Together, the number (311), timing (after HIP signup), and effect (HIP eligibility) of the
       changes suggest questionable actions by the AIPs. As evidenced by our analysis (Finding
       2), the AIPs were in fact making unsubstantiated changes solely to qualify their producers
       for HIP payments. However, RMA did not detect the problematic pattern until well after
       consequent overpayments because although the agency does monitor patterns and




Audit Report 50601-15-At                                                                       18
        questionable changes in data affecting its indemnities, RMA did not institute similar
        monitoring controls for changes that affected FSA’s HIP payments.31

        RMA Did Not Ensure FSA Received Correct Information

        By March 2007, prompted by RMA’s inquiry, two AIPs had corrected most of their
        unsupported changes—a total of 127 which resulted in FSA overpayments of $815,612.
        RMA assumed that these corrections would be picked up in its weekly download to FSA
        but they were not.

        RMA designed a program to search through its database for HIP-eligible producers and
        store relevant data about them in a separate file, which it sent to FSA weekly. Each
        week, the search added any newly qualified producers to the file. Since RMA did not
        anticipate producers becoming ineligible, the agency did not develop complementary
        software to search through its HIP-eligible file and remove producers who no longer
        qualified based on changed data (e.g., drought instead of hurricane damage as the cause
        of loss) before sending the file to FSA.

        RMA assumed that the AIPs’ corrections were reflected in its download to FSA.
        However, when we reconciled RMA’s data to that used by FSA, we noted that policies
        where the cause of loss had been corrected and no longer qualified for HIP continued to
        appear in FSA’s list of eligible producers. We notified RMA of the continuing problem
        and the agency has since modified its software to subtract newly ineligible producers
        from its weekly download.

Controls over the integrity of information that are sufficient for one agency alone may not be
acceptable for two agencies working together. Although RMA’s reliance on the AIPs to follow
corrected claims procedures may have been adequate for its programs, this control was not
effective for FSA’s administration of HIP. To strengthen controls in future data-sharing, the
agencies should take proactive steps to protect the integrity of data sent to and received from
other agencies, such as incorporating data-mining to monitor for problematic patterns and
periodically reconciling shared information.

     Recommendation 7

     RMA should implement monitoring controls, such as data-mining and periodic
     reconciliation, to ensure the accuracy of transmitted information when other agencies rely on
     RMA-provided data to implement their programs.

     Agency Response

     In its February 4, 2010, response, RMA stated that its new Information Technology
     Modernization (ITM) system will contain the history of changes to policies reported by the
     AIPs. This will allow RMA to perform monitoring controls such as periodic analysis of data


31
  RMA’s account executives for each AIP look for questionable patterns affecting coverage, premium, or liability;
monitor manual change requests from an AIP; review complaints or other special concerns; and address concerns
with the Reinsurance Services Director.

Audit Report 50601-15-At                                                                                       19
   contained in the ITM system and data submitted from that system to FSA to mitigate future
   data discrepancies. The ITM system will be operational for data reporting for the 2011
   reinsurance year data and will be in production beginning in July 2010.

   OIG Position

   We concur with RMA’s corrective action; however, we need additional information in order
   to reach management decision. The ITM system will contain the history of changes to
   policies allowing RMA to perform monitoring controls. But RMA needs to establish a
   policy indicating that routine monitoring controls should be implemented when other
   agencies (in addition to FSA) rely on the data to implement their programs. Additionally,
   because the ITM system will not be available until the 2011 reinsurance year, RMA needs to
   provide details of interim monitoring controls to ensure the accuracy of transmitted data used
   by other agencies to administer their programs during this period, especially since FSA’s
   Supplemental Revenue Assistance Payments Program is relying on RMA’s data.




Audit Report 50601-15-At                                                                      20
Scope and Methodology

Originally, our review of HIP covered fiscal year 2005, section 32, Disaster Payments under both
HIP and Tree Indemnity Program (TIP). However, after we began fieldwork, we expanded our
scope to review the integrity of data provided by RMA to FSA for HIP. To facilitate reporting
and corrective action, we reported to FSA on TIP in a separate audit (Audit 03601-13-At), and
included HIP results from that fieldwork along with the additional coverage of HIP and RMA in
this report.

Our review of HIP included FSA’s and RMA’s national offices in Washington, D.C., two FSA
State offices, eight FSA county offices, and four AIPs. In Florida, we visited the Jackson, Dade,
St. Lucie, and Indian River County FSA offices, and we visited the Baldwin, Escambia, Houston,
and Mobile County FSA offices in Alabama.

We conducted our fieldwork from August 2006 through August 2009. As of February 2008,
FSA had made over $40 million in HIP payments. During our earlier fieldwork, we selected
FSA’s HIP applications/files to review in the county offices as follows: (1) We selected files
from the list of required file reviews of FSA State and county office committee members and any
FSA employees; in total, we reviewed five cases. (2) We judgmentally selected a total of 39 HIP
applications from the 7 county offices in our sample using the following criteria:

   ·   applications at or near the $80,000 payment limitation,
   ·   multi-county producers,
   ·   producers spot-checked by the county office, and
   ·   producers who received both a HIP and TIP payment.

(3) Last, using a random number generator, we selected a total of 36 applications/files.

In total, we reviewed 80 HIP applications, paid and unpaid files, and interviewed 37 applicants
(see exhibit B) in our earlier fieldwork.

Because of the concerns arising from the data provided by RMA to FSA for HIP payments, we
expanded our review to verify the changes in the cause of loss or date of damage in the AIPs’
loss claim files. As part of the expanded coverage of RMA data, the Center for Agribusiness
Excellence identified 311 policies with changes to the cause of loss or date of damage which
allowed producers to become eligible for HIP payments totaling $2.7 million. Using these
results, we judgmentally selected a sample of four AIPs which reported changes to the cause of
loss. The selected AIPs represented 97 percent of the cause of loss changes. Three of the AIPs
reported changes to the dates of damage which represented 41 percent of the dates of damage
changes: Companies A, C, and D.

We judgmentally selected at least 25 percent of the identified Federal crop insurance policies
from AIPs with changes to the cause of loss for file review. We also judgmentally selected
25 percent of the identified policies with changes to the dates of damage for review. This
judgmental selection was based on a variety of factors including the agents and adjusters for the
policies, the original cause of loss and the changed cause of loss, the associated HIP payment,

Audit Report 50601-15-At                                                                          21
and the time period that elapsed from the original reported cause of loss to the change to the
cause of loss. In total we reviewed 66 Federal crop insurance policies with changes to the cause
of loss and/or date of damage that resulted in FSA’s HIP payments totaling $766,142. 32

Of the 311 policies with changes that were identified by the Center for Agribusiness Excellence,
RMA sent in January 2007 a list of 206 policies for crop year 2005 with changes to the cause of
loss only to AIPs responsible and required them to certify to the changes’ legitimacy and provide
supporting documents. For these 206 policies, we reviewed the documentation provided by AIPs
to RMA to determine whether the changes were adequately supported.

We also conducted site visits at the two AIPs with the largest volume of changes, Company A
and Company B. We visited a regional sales and servicing office and the headquarters for
Company A. We conducted fieldwork at a regional office of Company B. We also interviewed
national and regional claims officials, loss adjusters, and insurance agents to determine how
changes to RMA data were initiated, approved, and processed. We conducted follow up
fieldwork at two FSA county offices (Houston County, Alabama, and Jackson County, Florida).

We used the data entered by the AIPs into RMA’s database (that is the Data Acceptance System)
to complete this audit. We did not verify all data fields; instead, we compared the cause of loss
and date of damage fields with what was documented in the actual claims files to ensure these
fields were accurately reported.

To accomplish the audit objectives, we performed the following audit procedures:

        ·    We reviewed applicable laws, regulations, and FSA guidance concerning HIP.

        ·    We reviewed RMA policies and procedures for changes made to producers’ loss
             claims.

        ·    We interviewed FSA national office officials in the Production, Emergency, and
             Compliance Division, as well as Operations Review and Analysis Staff, to determine
             their role in administering, monitoring, and reviewing HIP.

        ·    We interviewed officials in the RMA national and Kansas City offices in Reinsurance
             Services, Risk Management Services, Producer Analysis & Accounting, and
             Compliance to determine if they were aware of changes to loss claims and procedures
             for making changes.

        ·    We reviewed FSA and RMA correspondence related to HIP and changes to loss
             claims.

        ·    We obtained FSA data regarding the number of applicants and funding allocations to
             States administering HIP.


32
  The 66 policies selected here were separate from the sample of 80 HIP files that we had selected to review for
processing and approval of the HIP applications.

Audit Report 50601-15-At                                                                                           22
       ·   We obtained data from the Center for Agribusiness Excellence that identified
           producers whose cause of loss or date of damage was changed to qualify them for
           HIP.

       ·   We interviewed FSA’s Florida and Alabama State office officials to determine their
           role in funding and monitoring the county offices’ administration of HIP.

       ·   We interviewed FSA’s staff at the county level to understand how they administered
           HIP and to determine whether they followed established procedures.

       ·   We reviewed HIP applications to ensure that producers met eligibility requirements
           and that supporting documents were adequate.

       ·   We reviewed each county office’s pending payment, nonpayment, and overpayment
           registers to ensure their accuracy.

       ·   We reviewed original claim files maintained by AIPs to ensure documents supported
           changes, and interviewed company officials to determine their procedures for making
           changes.

       ·   We interviewed producers, adjusters, and agents to verify loss information, evaluate
           program delivery, and determine their role and knowledge of changes to loss claims.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Audit Report 50601-15-At                                                                        23
Exhibit A: Summary of Monetary Result

  Finding                                                                         Monetary
              Recommendations            Description            Amount
  Number                                                                          Category
                                    FSA HIP
                                    Overpayments Made
                                                                              Unsupported
                                    as a Result of AIPs’
      2             5 and 6                                    $1,061,958     Costs, Recovery
                                    Changes to the Cause
                                                                              Recommended
                                    of Loss or Date of
                                    Damage


The above table (exhibit A) presents a summary of monetary results for our audit report. There
are five columns in this exhibit. The first column lists the finding number, the second column
shows the recommendation number, the third column shows a description of the monetary
exception, the forth column shows the dollar amount of exception, and the fifth column shows
the monetary category of the exception.




Audit Report 50601-15-At                                                                     24
Exhibit B: HIP Universe and Sample Data for Counties Visited 33
                                                  ALABAMA34
           BALDWIN COUNTY                             NO.                PAYMENTS
           Applications                               39                 $158,130
           File Reviews                               10                 $52,825
           Interviews                                 6                  $45,167
           ESCAMBIA COUNTY                            NO.                PAYMENTS
           Applications                               33                 $171,408
           File Reviews                               10                 $32,050
           Interviews                                 5                  $12,632
           HOUSTON COUNTY                             NO.                PAYMENTS
           Applications                               79                 $367,226
           File Reviews                               10                 $143,506
           Interviews                                 5                  $132,372
           MOBILE COUNTY                              NO.                PAYMENTS
           Applications                               32                 $390,174
           File Reviews                               10                 $116,933
           Interviews                                 5                  $100,427
                                                   FLORIDA35
           DADE COUNTY                                 NO.               PAYMENTS
           Applications                                241               $10,425,270
           File Reviews36                              20                $1,210,013
           Interviews                                  5                 $232,539
           INDIAN RIVER COUNTY                         NO.               PAYMENTS
           Applications                                61                $937,302
           File Reviews                                10                $456,940
           Interviews                                  5                 $319,541
           ST. LUCIE COUNTY                            NO.               PAYMENTS
           Applications                                97                $1,452,088
           File Reviews                                10                $489,296
           Interviews                                  6                 $412,540
                                                     TOTAL
           REVIEW TOTALS                                NO.              PAYMENTS
           Applications                                 582              $13,901,598
           File Reviews                                 80               $2,501,563
           Interviews                                   37               $1,255,218
The above tables (exhibit B) presents the universe and sample data for counties visited in our
audit. There are three columns in this exhibit. The first column shows by site the applications,
file reviews, and interviews. The second column shows the number of occurrences in our
universe and sample, and the third column shows the dollar amount of each occurrence. The
amounts are totaled at the bottom of the exhibit.


33
   The file reviews represent the number of producer’s files sampled and reviewed; the interviews represent the
number of sampled producers interviewed.
34
   Application data are as of August 21, 2006.
35
   Application data are as of October 3, 2006. The Jackson County FSA Office was visited as a followup review
which consisted of producer interviews and not included in our original sample.
36
   Both paid and unpaid files were reviewed in the county office as noted in the Scope and Methodology.

Audit Report 50601-15-At                                                                                          25
    Exhibit C: Loss Claim Cause of Loss Change Sample
    The document below shows a loss claim processed in January 2006 indicating the causes of a
    crop loss were drought in August 2005 and frost in December 2005 (A). After the original claim
    was filed, a claims manager made an unsupported change to the claim in September 2006 to
    replace the “frost” cause of loss in December 2005 with a July 2005 hurricane related “wind”
    cause of loss (B), which allowed the producer to become eligible for a FSA HIP payment.




B


A




    Audit Report 50601-15-At                                                                     26
Abbreviations

AIP .............................. Approved Insurance Provider
CFR ............................. Code of Federal Regulations
DAC ............................ Deputy Administrator of Compliance
HIP .............................. Hurricane Indemnity Program
FSA ............................. Farm Service Agency
ITM ............................. Information Technology Modernization
LAM............................ Loss Adjustment Manual Standards Handbook
NAP............................. Noninsured Crop Disaster Assistance Program
OGC ............................ Office of the General Counsel
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
SRA............................. Standard Reinsurance Agreement
SURE .......................... Supplemental Revenue Assistance Payments
TIP............................... Tree Indemnity Program
USDA.......................... U.S. Department of Agriculture




Audit Report 50601-15-At                                                       27
Agency’s Response



                           USDA’S


             RISK MANAGEMENT AGENCY


                            AND


                  FARM SERVICE AGENCY


           RESPONSES TO AUDIT REPORT




Audit Report 50601-15-At                28
United States       TO:                Robert W. Young                            February 4, 2010
Department of                          Assistant Inspector General for Audit
Agriculture
                                       Office of Inspector General
Risk
Management          FROM:              Michael Hand /s/ Dan Sheppard
Agency
                                       Audit Liaison Official
1400 Independence
Avenue, SW          SUBJECT:           Office of Inspector General Audit 50601-15-At, Official Draft Report,
Stop 0801
Washington, DC
                                       Hurricane Indemnity Program – Integrity of Data Provided by the Risk
20250-0801                             Management Agency


                    Outlined below is the Risk Management Agency’s (RMA) response to the subject report.

                    RECOMMENDATION NO. 1:

                    RMA and FSA should implement policies that require interagency data sharing
                    agreements, such as memorandums of understanding, to include specific procedures
                    and timeframes to resolve concerns, and to elevate to the appropriate official when
                    timely resolution does not occur.

                    RMA and FSA Response:

                    A memorandum of understanding between RMA and FSA will be issued for future data
                    sharing to include notification to responsible parties that action should be taken to elevate
                    issues/concerns to appropriate levels. Both agencies expect implementation of this
                    recommendation by August of 2010.

                    RMA requests management decision for this recommendation.

                    RECOMMENDATION NO. 2:

                    RMA should review all supporting documents provided by AIPs in response to the
                    agency’s requests for justification for loss claim changes and determine the
                    legitimacy of the changes.

                    RMA Response:

                    Because the AIPs have corrected the unsupported claim information in RMA’s database,
                    this recommendation is no longer applicable.

                    RMA requests management decision for this recommendation.



                    The Risk Management Agency Administers
                    And Oversees All Programs Authorized Under
                    The Federal Crop Insurance Corporation

                    An Equal Opportunity Employer
OIG Audit 50601-15-At                                                           Page 2 of 3



RECOMMENDATION NO. 3:

RMA should provide FSA with an accurate list of producers who have been
determined to be eligible for HIP based on AIPs’ and RMA’s review of AIPs’ changes
to loss claim data.

RMA Response:

RMA has completed this action. The HIP program was set up for transmissions to include
all eligible producers in each transmission. Previously, there was a problem with producers
not being removed from the listing if a change was made that made them ineligible. After
correcting this problem, a new file was sent to FSA in March 2009. Additional changes
were made by a company to correct problems with the way they were transmitting their
data. As a result, an additional file was created and sent to FSA in July 2009.

RMA requests management decision for this recommendation.

RECOMMENDATION NO. 4:

RMA should seek an opinion from the Office of the General Counsel as to whether
RMA can enforce administrative penalties or sanctions on AIPs responsible for
making changes to claim information in RMA’s database that were unsupported and,
if applicable, assess the AIPs that inappropriately changed claim data.

Regardless, RMA should provide additional training to AIPs stressing the procedural
requirements for making changes to loss claims and emphasizing the necessary
documentation to verify and support changes.

RMA Response:

RMA has requested and received the above referenced legal opinion from the Office of the
General Counsel (OGC) (attached). After reviewing OGC’s opinion, the actions of all the
AIPs to correct the claim information in RMA’s database that were unsupported, and the
fact there was no direct financial gain by the AIPs actions, it will be very difficult for RMA
to prove willful behavior on the part of the AIPs. For this reason, RMA will be taking no
further action concerning this portion of the recommendation.

Concerning the second part of this recommendation, RMA does not provide training to the
AIPs, but specifies program requirements they must meet. As an alternative, RMA will
issue a bulletin within the next six months to the AIPs highlighting the program
requirement(s) for the issues cited in the audit.

RMA requests management decision for this recommendation.
OIG Audit 50601-15-At                                                        Page 3 of 3




RECOMMENDATION NO. 6:

RMA should determine whether the 18 policies that OIG identified with unsupported
changes and that resulted in $246,346 in HIP payments need to be corrected. Direct
the AIPs to reverse the changes and provide FSA a list of these corrections.

RMA Response:

Within the next year RMA will review and assess the 18 identified policies to determine
whether the changes are supported, and if not, RMA will instruct the responsible AIP to
reverse the changes, and provide to FSA a list of corrections.

RMA requests management decision for this recommendation.

RECOMMENDATION NO. 7:

RMA should implement monitoring controls, such as data-mining and periodic
reconciliation, to ensure the accuracy of transmitted information when other agencies
rely on RMA-provided data to implement their programs.

RMA Response:

RMA’s new Information Technology Modernization (ITM) system will contain the history
of changes to policies reported by the Approved Insurance Providers (AIPs). This will
allow RMA to perform monitoring controls such as periodic analysis of data contained in
the ITM system, and data submitted from that system to FSA to mitigate future data
discrepancies. The ITM system will be operational for data reporting for the 2011
reinsurance year data, and will be in production beginning in July 2010.

RMA requests management decision for this recommendation.

Should you have any questions or require additional information, please contact Alan
Sneeringer at (202) 720-8813.

Attachment (OGC Opinion)
USDA
~   .   United States
        Department of 	
        Agriculture
                                 Office of the
                                 General
                                 Counsel 	
                                                           Washington
                                                           D.C.
                                                           20250- 1400
                                                                        I




        DEC 1 5 2009


    MEMORANDUM FOR MICHAEL HAND
                   DEPUTY ADMINISTRATOR FOR COMPLIANCE
                   RISK MANAGEMENT AGENCY

    FROM: 	                    Kimberley E. Arrigo
                               Senior Counsel
                               Community Developme

    SUBJECT: 	                 Office of Inspector Gener      ffic al Draft Audit Report 5060 I-IS-At

            You have asked this office for a legal opinion willi respect to recommendation number 4
    in the above named audit. The audit involves the Hurricane Indemnity Program (HIP) and the
    integrity of the data the Risk Management Agency (RMA) sent to the Farm Service Agency
    (FSA), who based the eligibility and amount of payment on the data transmitted. The Office of
    Inspector General (OIG) claims that it has discovered instances where the approved insurance
    providers (AlPs) have changed the cause of loss in the RMA system to retroactively make
    producers eligible for HIP.

             OIG notified RMA and RMA sent out notices to the AlPs for 206 policies to determine
    whether the changes were justified and to provide supporting documentation. A second request
    was also sent out by FCIC to those AlPs that had not yet conducted their reviews. OIG claims
    that two AlPs reversed the findings on '127 of 148 policies but three AlPs certified that the
    changes for all of their 58 policies were justified. OIG investigated the original files for 66
    claims and stated that 50 of those claims were not supported on the grounds that the AlP failed to
    follow approved procedures with respect to corrected claims. OIG contends that the AlPs
    decision to ignore approved corrected claims procedures, and subsequent failure to acknowledge
    this failure and make corrections, constitutes a pattern or practice that would permit denial of
    reinsurance for such policies and requested that RMA obtain a legal opinion on the issue.

            The policies at issue were insured under the 2005 and 2006 Standard Reinsurance
    Agreements (SRA). It appears that the indemnities paid under the policy are not in dispute so
    section IV.H.7 of the SRA is not applicable. With respect to the delivery of the program, section
    IV.H.8 of the SRA states in relevant part:

             In the event there is a pattern or practice of failing to comply with the Agreement
             or procedures and FCIC has determined the Company or its service providers,
             agents, and loss adjusters has failed to provide services or to comply with a
             provision of this Agreement or procedures and such failure has occurred:

                 a. During the claims process (such as loss adjustment, quality control reviews,
                 verification of applicable information, etc.), the Company agrees to pay FCIC
           an amount up to 5 percent of the net book premium on all crop insurance
           contracts affected by the failure based on the materiality or severity of the
           failure;

Therefore, under the pattern and practice provisions, RMA could not collect more than 5 percent
of the net book premium for the applicable policies.

        However, given the fact that the AlPs were specifically asked at least once by RMA to
review the policies, justify the change in the cause of loss and provide supporting documentation,
any failure to follow the procedures may be considered willful. Section IV.H.6 of the SRA
states:

       In addition to any other remedies in this Agreement, ifFCIC determines that the
       Company or its affiliate willfully violated the Agreement or the procedures, FCIC
       reserves the right to deny reinsurance for any insurance contract that is sold or
       serviced in violation of the terms of this Agreement or procedures.

Without seeing any of the evidence, this office cannot conclude that section IV.H.6 of the SRA
applies. However, with respect to those AlPs that corrected the files when first asked to review
them, I think it will be very difficult to establish any willful behavior unless it can be established
at the agent level. With respect to those AlPs that failed to follow the approved procedures after
being asked to review the policies by, such conduct may rise to the level of willful. If RMA can
establish that the conduct was willful, there are grounds to deny reinsurance for the applicable
policies.

        If you have any questions, please contact me at   690~2391.




                                                  2

United States
Department of
Agriculture                                                                                  December 24, 2009
Farm and Foreign
Agricultural
Services             TO:            Director, Farm and Foreign Agricultural Division
Farm Service
Agency               FROM:          T. Mike McCann, Director /s/ T. Mike McCann
Operations Review                   Operations Review and Analysis Staff
and Analysis Staff

1400 Independence    SUBJECT:       Hurricane Indemnity Program – Integrity of Data Provided by the Risk
Ave, SW                             Management Agency, Audit 50601-15-AT
Stop 0540
Washington, DC
20250-0501

                     Recommendation 5

                     The Farm Service Agency is in the process of collecting the $815,612 identified by OIG
                     and resolve any further overpayments a a result of a corrected RMA download. On
                     August 14, 2009, Notice DAP-316 notified county offices that a corrected RMA
                     download would be transmitted on or around August 18, 2009. County offices were
                     instructed to reconcile HIP application to match the final RMA download data. Upon
                     reconciling the files county offices will be required to determine if the producers affected
                     by the corrected download are due a payment or if they have been overpaid. Instructions
                     provided indicated if producers are determined overpaid then county offices are to
                     establish a receivable for the overpayment. On November 30, 2009, Notice DAP-319
                     provided further instructions to State and County offices to submit documentation to the
                     National Office in support of responding this Recommendation. All documentation to
                     support the collection of money or establishment of receivables is to be provided to the
                     National office by January 20, 2010.

                     Attachment




                                                     USDA is an Equal Opportunity Employer
